      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General
                                                                          Washington, D.C. 20201




February 2, 2011

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Oversight of the Prescriber Identifier Field in Prescription Drug Event Data for
               Schedule II Drugs (A-14-09-00302)


The attached final report provides the results of our review of the oversight of the prescriber
identifier field in Prescription Drug Event data for Schedule II drugs.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Robert A. Vito, Acting Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at Robert.Vito@oig.hhs.gov.
We look forward to receiving your final management decision within 6 months. Please refer to
report number A-14-09-00302 in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL



     OVERSIGHT OF THE
PRESCRIBER IDENTIFIER FIELD
IN PRESCRIPTION DRUG EVENT
           DATA
   FOR SCHEDULE II DRUGS




                      Daniel R. Levinson
                       Inspector General

                        February 2011
                        A-14-09-00302
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003
amended Title XVIII of the Social Security Act (the Act) by establishing the Medicare Part D
prescription drug program. Under Part D, which began January 1, 2006, individuals entitled to
benefits under Part A or enrolled in Part B may obtain drug coverage.

To provide prescription drug benefits under Part D, the Centers for Medicare & Medicaid
Services (CMS) contracts with private entities called Part D sponsors that act as payers and
insurers. The sponsors must provide a minimum set of prescription benefits, referred to as the
“basic” benefit. Sponsors may offer these benefits through a standalone prescription drug plan
or as part of a managed care plan, known as a Medicare Advantage Prescription Drug Plan.

Pursuant to section 1860D-15(c)(1)(C) and (d)(2) of the Act and 42 CFR § 423.322(a), sponsors
must submit the information necessary for CMS to carry out Part D payment provisions for the
coverage year. Sponsors submit Prescription Drug Event (PDE) records as part of the required
information. PDE data are used for payment purposes, as well as for quality monitoring,
program integrity, and oversight. Sponsors complete the PDE record using information provided
by the pharmacy responsible for filling the prescription. In calendar year (CY) 2007, a PDE
record contained 37 fields. The prescriber identifier (ID) field is filled by a number identifying
the prescriber (physician, dentist, or other licensed person) who is permitted to write
prescriptions. The prescriber ID field should generally contain one of four types of
identification: a Drug Enforcement Administration (DEA) number, a National Provider
Identifier, a Unique Physician Identification Number, or a State license number.

The Controlled Substances Act established five schedules based on the medical use acceptance
and the potential for abuse of the substance or drug. The Attorney General has the authority to
reclassify a substance or drug. Schedule II drugs have a high potential for abuse, have an
accepted medical use with severe restrictions, and may cause severe psychological or physical
dependence if abused. Except in emergency situations or when dispensed directly by a
practitioner other than a pharmacist to an ultimate user, Schedule II prescription drugs may not
be dispensed without a practitioner’s written prescription.

OBJECTIVE

Our objective was to determine whether PDE records for Schedule II drugs contained valid
prescriber IDs and whether CMS and sponsors performed any edits on the prescriber ID field.

SUMMARY OF FINDINGS

For CY 2007, the Schedule II gross drug costs for approximately 228,000 PDE records with
invalid prescriber ID totaled approximately $20.6 million. With limited guidance and edits in
place for the prescriber ID field, CMS and the sponsors have not identified these invalid
prescriber IDs in the PDE records. Additionally, through our separate analysis of three

                                                i
Schedule II drugs that are most often reported in investigations, we were unable to identify the
top prescribers for oxycodone, Ritalin, and methadone.

RECOMMENDATION

We recommend that CMS:

   •   issue specific guidance requiring sponsors to include a valid DEA number on both
       standard and nonstandard format PDE records involving Schedule II drugs and

   •   implement an edit to reject PDE records for Schedule II drugs when the prescriber ID
       field contains an invalid prescriber ID number.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS did not concur with our recommendations. CMS
indicated as it begins to implement additional safeguards related to the prescriber ID, it must
continue to balance its dual interests in monitoring program vulnerabilities with ensuring that
Medicare beneficiaries have access to critical medications. CMS stated that the use of the DEA
number is not suitable as a single ID because only a fraction of PDE volume involves Schedule
II drugs.

CMS’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We respect CMS’s need to balance monitoring program vulnerabilities with beneficiaries’ access
to medications. Accordingly, we modified our first recommendation. Implementing this
recommendation would not have any impact on Medicare beneficiaries’ access to critical
medications. Establishing the National Provider Identifier as a standardized prescriber ID for
PDE records is important, but it is also important to require that sponsors include a valid DEA
number on PDE records involving Schedule II drugs. The DEA number is the only ID type that
indicates whether prescribers are registered to prescribe Schedule II drugs and is necessary for
the effective monitoring of aberrancies in the PDE data related to Schedule II drugs.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                   Page

INTRODUCTION...................................................................................................................1

          BACKGROUND ..........................................................................................................1
              Medicare Part D ................................................................................................1
              Prescription Drug Event Data . .........................................................................1
              Controlled Substances .......................................................................................2
              Abuse of Controlled Substances Related to Health Care Fraud .......................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ........................................................3
               Objective ...........................................................................................................3
               Scope .................................................................................................................3
               Methodology .....................................................................................................3

FINDINGS AND RECOMMENDATIONS .........................................................................5

          INVALID PRESCRIBER IDENTIFIERS ...................................................................5
               All Schedule II Drugs in Calendar Year 2007 ..................................................5
               Three Specific Schedule II Drugs .....................................................................5

          INSUFFICIENT EDITS ...............................................................................................6
               Centers for Medicare & Medicaid Services Guidance .....................................6
               Centers for Medicare & Medicaid Services Edits.............................................6
               Sponsor Edits ....................................................................................................6

          CONCLUSION .............................................................................................................7

          RECOMMENDATIONS ..............................................................................................7

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS .................7

          OFFICE OF INSPECTOR GENERAL RESPONSE ...................................................7

APPENDIX

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                    iii
                                              INTRODUCTION

BACKGROUND

Medicare Part D

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003
amended Title XVIII of the Social Security Act (the Act) by establishing the Medicare Part D
prescription drug program. Under Part D, which began January 1, 2006, individuals entitled to
benefits under Part A or enrolled in Part B may obtain drug coverage. To provide prescription
drug benefits under Part D, the Centers for Medicare & Medicaid Services (CMS) contracts with
private entities called Part D sponsors that act as payers and insurers. The sponsors must provide
a minimum set of prescription benefits, referred to as the “basic” benefit. Sponsors may offer
these benefits through a standalone prescription drug plan or as part of a managed care plan,
known as a Medicare Advantage Prescription Drug Plan.

Prescription Drug Event Data

Pursuant to section 1860D-15(c)(1)(C) and (d)(2) of the Act and 42 CFR § 423.322(a), sponsors
must submit the information necessary for CMS to carry out Part D payment provisions for the
coverage year. Sponsors submit Prescription Drug Event (PDE) records as part of the required
information. PDE data are used for payment purposes, as well as for quality monitoring,
program integrity, and oversight. A PDE record contains the prescription drug cost, payment
information, identification numbers of entities or people involved (such as a physician,
pharmacy, and beneficiary), and specific drug provided for each Part D prescription drug
transaction.

Sponsors complete the PDE record using information provided by the pharmacy responsible for
filling the prescription. In calendar year (CY) 2007, a PDE record contained 37 fields. The
prescriber identifier (ID) field is filled by a number identifying the prescriber (physician, dentist,
or other licensed person) who is permitted to write prescriptions. 1 The prescriber ID field should
generally contain one of four types of identification: a Drug Enforcement Administration (DEA)
number, a National Provider Identifier (NPI), a Unique Physician Identification Number (UPIN),
or a State license number. The prescriber ID qualifier field shows the ID type that is entered in
the prescriber ID field. In May 2008, CMS indicated that it prefers that sponsors use the NPI to
complete the prescriber ID field. 2

For prescription drug claims submitted in the NCPDP standard format, the common industry
format, CMS requires that an entry be made in the prescriber ID field. 3 However, an entry is

1
    CMS, Updated Instructions: Requirements for Submitting Prescription Drug Event Data, April 27, 2006.
2
 CMS memorandum, “Prescriber Identifier on Part D NCPDP [National Council Prescription Drug Program]
Pharmacy Claims Transactions,” May 1, 2008.
3
 CMS memorandum, “National Provider Identifier (NPI) Implementation for Prescription Drug Events (PDEs),”
April 16, 2007.


                                                         1
optional in the prescriber ID field for those prescription drug claims transmitted to the sponsor in
any format other than the NCPDP standard format. Examples of a nonstandard format include a
claim submitted by a beneficiary or a paper claim submitted by a provider. Approximately
2 percent of all the 2007 PDE data was submitted in a nonstandard format.

Controlled Substances

The Controlled Substances Act 4 established five schedules based on the medical use acceptance
and the potential for abuse of the substance or drug. Schedule I, which include drugs or
substances that have no currently accepted medical use and a high potential for abuse, is the most
restrictive, and Schedule V is the least restrictive. The Attorney General has the authority to
reclassify a substance or drug.

Schedule II drugs have a high potential for abuse, have an accepted medical use with severe
restrictions, and may cause severe psychological or physical dependence if abused. 5 Except in
emergency situations or when dispensed directly by a practitioner other than a pharmacist to the
ultimate user, Schedule II prescription drugs may not be dispensed without a practitioner’s
written prescription. 6 Schedule II drugs include drugs such as oxycodone and morphine.

A physician must register with the DEA to prescribe controlled substances. In addition, a
physician has to be authorized to prescribe controlled substances by the State where he or she
practices. 7 Therefore, some physicians are not registered to prescribe Schedule II drugs.

Abuse of Controlled Substances Related to Health Care Fraud

The abuse of controlled substances impacts both the Medicare program and the Medicaid
program. For example, the Government Accountability Office (GAO) recently reported on fraud
and abuse related to controlled substances in Medicaid. Its report noted that some physicians
overprescribed controlled substances to beneficiaries. Its report also identified payments for
drug claims that were prescribed by providers who were deceased, as well as by providers who
were excluded 8 from doing business in Federal health care programs. 9 The report concluded that
the abuse of controlled substances is a concern for Federal health care programs.

4
    21 U.S.C. §§ 801-971.
5
    21 U.S.C. § 812(b)(2).
6
    21 U.S.C. § 829(a).
7
 Department of Justice, Drug Enforcement Administration, Office of Diversion Control, Practitioner’s Manual: An
Informational Outline of the Controlled Substances Act, 2006 edition.
8
 42 CFR § 1001.1901. An excluded provider cannot receive payment from Medicare, Medicaid, or other Federal
programs. CMS will not pay for items or services ordered or prescribed by an excluded provider, including
prescriptions. See also CMS, Part D Manual, chap. 9, § 50.2.6.3.3. Sponsors are required to deny claims for drugs
prescribed or provided by an excluded provider.
9
 GAO, Medicaid: Fraud and Abuse Related to Controlled Substances Identified in Selected States, GAO-09-957,
September 9, 2009.

                                                        2
We learned that several physicians have been found guilty of fraudulently prescribing Schedule
II drugs. These illegal practices included but were not limited to prescribing without a legitimate
doctor’s office visit, prescribing without a legitimate medical purpose, and collusion with the
pharmacy. In at least one case, a patient died because a physician illegally prescribed controlled
substances.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether PDE records for Schedule II drugs contained valid
prescriber IDs and whether CMS and sponsors performed any edits on the prescriber ID field.

Scope

We limited our review to all PDE records for Schedule II drugs with dates of service during
CY 2007, which covered approximately $1.6 billion in gross drug costs. We included both
NCPDP standard and nonstandard formatted PDE records for which prescriber IDs were a DEA
number, an NPI, or a UPIN. We excluded records for which the prescriber ID number type was
a State license because these records made up only 1.2 percent of the total CY 2007 PDE records
and because we were unable to obtain information containing valid State license numbers.

Because our objective did not require an assessment of the internal control structure, we did not
perform such a review of CMS or any sponsor. We limited our review of internal controls to
obtaining an understanding of how CMS and the 10 selected sponsors maintained and monitored
PDE records of Schedule II drugs. We also did not independently verify the validity of the
responses to the questionnaires that we sent.

We performed our fieldwork at the Baltimore, Maryland, Centers for Medicare & Medicaid
Audits office and at Coventry (a sponsor) in Harrisburg, Pennsylvania, from January 2009
through April 2010.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws and regulations and CMS guidance;

   •    interviewed CMS officials about the guidance governing (1) the PDE data, (2) the
        oversight program to control fraud, waste, and abuse, and (3) any concerns with PDE
        data or compliance plans;

   •    obtained CY 2007 PDE data;

   •    identified the Schedule II drugs and analyzed the prescriber ID field that either had a
        DEA number, an NPI, or a UPIN;

                                                 3
     •   determined that the prescriber ID was invalid when its field had a number that

         o     was not listed in the DEA, NPI, and UPIN databases,

         o     did not correspond to a prescriber with the authority to prescribe a Schedule II drug,

         o     was identified as belonging to a pharmacy 10 (by comparing all prescriber IDs to the
               NCPDP Pharmacy database that contained NPI and DEA numbers of pharmacy
               providers to determine whether the prescriber ID belonged to a pharmacy), or

         o     was not recorded (a blank field);

     •   determined the total number of PDE records and gross drug costs for CY 2007
         Schedule II drugs and total number of PDE records and gross drug costs for CY 2007
         Schedule II drugs associated with invalid prescriber IDs;

     •   obtained information from the selected sponsors on their monitoring and oversight of the
         PDE data, specifically the edits performed on the prescriber ID field within the PDE
         record;

     •   judgmentally selected 10 sponsors, which collectively processed approximately
         76 percent of gross drug costs for the invalid and blank prescriber IDs that we
         identified; 11

     •   interviewed officials of the 10 selected sponsors regarding their monitoring and oversight
         of their PDE data;

     •   consulted with law enforcement to identify three Schedule II drugs frequently involved in
         health care investigations (i.e., oxycodone, Ritalin, and methadone); and

     •   attempted to determine the top 10 prescribers for those three Schedule II drugs.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.



10
  The NCPDP Pharmacy database contains information about the retail pharmacies in the United States and Puerto
Rico classified as chains, independents, and franchises.
11
  CMS’s Updated Instructions: Requirements for Submitting Prescription Drug Event Data, April 27, 2006,
section 7.2.3, defines gross drug costs as the sum of the following six PDE payment fields: covered plan paid
amount, noncovered plan paid amount, patient pay amount, low income cost-sharing payment, other true
out-of-pocket costs, and patient liability reduction due to other payer amount.


                                                         4
                              FINDINGS AND RECOMMENDATIONS

We determined that not all PDE records for Schedule II drugs contained valid prescriber IDs.
For CY 2007, the Schedule II gross drug costs for approximately 228,000 PDE records with
invalid prescriber IDs totaled approximately $20.6 million.12 Both CMS and sponsors performed
edits on the prescriber ID qualifier and prescriber ID fields. However, these edits did not detect
or prevent invalid prescriber IDs. Neither CMS nor the sponsors identified these invalid
prescriber IDs in the PDE records. Additionally, through our separate analysis of three Schedule
II drugs, we were unable to identify the top prescribers for the three Schedule II drugs that we
analyzed using CY 2007 PDE records.

INVALID PRESCRIBER IDENTIFIERS

All Schedule II Drugs in Calendar Year 2007

For CY 2007, the Schedule II gross drug costs for approximately 228,000 PDE records with
invalid prescriber ID totaled approximately $20.6 million. The types of invalid prescriber IDs
fell into four categories. The gross drug costs for PDE records with a prescriber ID not listed in
the DEA, NPI, or UPIN databases were approximately $13.0 million. The CY 2007 Schedule II
gross drug costs for PDE records with a prescriber ID (i.e., DEA numbers 13) that did not indicate
that the prescriber had the authority to prescribe a Schedule II drug were approximately
$4.1 million. The CY 2007 Schedule II gross drug costs for PDE records with pharmacy
prescriber IDs were approximately $3.2 million. The CY 2007 Schedule II gross drug costs for
PDE records without any prescriber ID, i.e., blank data fields, were approximately $307,000.

Three Specific Schedule II Drugs

We were unable to identify high volume prescribers for oxycodone, Ritalin, and methadone.
Those were the three drugs we established in discussions with law enforcement officials that had
a high risk of being abused. Specifically, for oxycodone and Ritalin, we were unable to identify
the top two prescribers because of invalid prescriber IDs. For methadone, we were unable to
identify the second top prescriber because of invalid prescriber IDs. 14 The invalid prescriber IDs
used for these drugs were AA0000000 and 99999999.




12
  Of the approximately 228,000 PDE records that had invalid prescriber IDs, 16,000 (7 percent) were nonstandard
format records and 212,000 (93 percent) were standard format records.
13
 We were unable to determine whether the prescriber had the authority to prescribe Schedule II drugs for those
PDE records that utilized a UPIN or an NPI in the prescriber ID field.
14
  The results of our separate analysis of oxycodone, Ritalin, and methadone have been shared with both the Office
of Inspector General’s Office of Investigations and CMS for potential further investigation.


                                                        5
INSUFFICENT EDITS

Centers for Medicare & Medicaid Services Guidance

Pursuant to section 1860D-4(c)(1)(D) of the Act, sponsors are required to have a program to
control fraud, waste, and abuse. CMS’s Prescription Drug Benefit Manual, chapter 9, provides
guidance for sponsors in the areas of fraud, waste, and abuse in the Part D program. However,
this guidance does not advise the sponsors to monitor the validity of the prescriber ID field in the
PDE record to control fraud, waste, and abuse in the Part D program.

In chapter 9, the guidance on fraud, waste, and abuse as it relates to the prescriber and the
prescription drug claims is limited. CMS recommends that sponsors comply with applicable
criminal statutes such as the Controlled Substance Act, have written policies and procedures to
identify prescribers that are excluded or deceased, and monitor claims to determine excessive
prescribing of controlled substances. 15

Centers for Medicare & Medicaid Services Edits

CMS had edits in place to ensure the accuracy of PDE records submitted in the standard format.
A PDE record is organized into three levels: file level (provides information to identify the
submitter); batch level (provides information to identify the drug or managed care plan); and
detail level (includes the information from each PDE record). Two systems perform the checks
of the data: the Prescription Drug Front-End System performs the edits at the file and batch
levels, and Drug Data Processing System (DDPS) performs the edits at the detail level.

During CY 2007, the DDPS performed edits related to the prescriber ID and prescriber ID
qualifier field to determine only whether the prescriber ID field was filled and the prescriber ID
qualifier field contained one of the four qualifier codes. If these edits detected errors, the
sponsor received an error report and was responsible for correcting and resubmitting the PDE
data. Although CMS had edits in place, these edits did not check the validity of the prescriber ID
field and whether a prescriber ID indicated that the prescriber had the authority to prescribe
Schedule II drugs. Of the four types of identification used in the prescriber ID field, a DEA
number is the only identifier that documents that the prescribers are registered to prescribe
Schedule II drugs.

Sponsor Edits

Most selected sponsors stated that their monitoring efforts included edits such as checking the
logical format of the prescriber ID number. However, the selected sponsors did not perform any
other edits to determine invalid prescriber IDs. Other edits might include comparisons to a
database to determine if DEA numbers are valid. In addition, we noted prescriber ID logical
format errors still existed in the sponsors’ submitted CY 2007 PDE records.



15
     CMS, Prescription Drug Benefit Manual, chapter 9, April 25, 2006.


                                                          6
CONCLUSION

Having a valid prescriber ID in the PDE record is a valuable program integrity safeguard.
Without the valid information from the sponsors, in particular the prescriber ID number, CMS
and its Part D contractors cannot properly monitor and oversee the Part D program to detect,
prevent, and control fraud, waste, and abuse. Without this information, CMS and its Part D
contractors might not be able to monitor excessive prescribing patterns, determine whether a
prescription was written by an excluded or deceased provider, or identify those physicians who
illegally prescribe Schedule II drugs.

RECOMMENDATIONS

We recommend that CMS:

   •   issue specific guidance requiring sponsors to include a valid DEA number on both
       standard and nonstandard format PDE records involving Schedule II drugs and

   •   implement an edit to reject PDE records for Schedule II drugs when the prescriber ID
       field contains an invalid prescriber ID number.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS did not concur with our recommendations. CMS
indicated as it begins to implement additional safeguards related to the prescriber ID, it must
continue to balance its dual interests in monitoring program vulnerabilities with ensuring that
Medicare beneficiaries have access to critical medications.

CMS stated that the use of the DEA number is not suitable as a single ID because only a fraction
of PDE volume involves Schedule II drugs. CMS will evaluate its authority to mandate the use
of the NPI as the standardized prescriber ID through rulemaking. In response to our second
recommendation, CMS stated that it did not know whether on implementation of the single ID, it
would be feasible to reject PDE records for Schedule II drugs. However, CMS acknowledged
the need to strengthen its requirements related to prescriber ID numbers and indicated that it is
planning to institute new edits to check that the format of the prescriber ID is correct. CMS
added that if it implements a requirement for the single prescriber ID, it would also expect to
implement a process for verifying the accuracy of that number.

CMS’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We respect CMS’s need to balance monitoring program vulnerabilities with beneficiaries’ access
to medications. Accordingly, we modified our first recommendation. Implementing this
recommendation would not have any impact on Medicare beneficiaries’ access to critical
medications.


                                                7
While establishing the NPI as a standardized prescriber ID for PDE records is important, it is
also important to require that sponsors include a valid DEA number on PDE records involving
Schedule II drugs. The DEA number is the only ID type that indicates whether prescribers are
registered to prescribe Schedule II drugs and is necessary for the effective monitoring of
aberrancies in PDE data related to Schedule II drugs.

With respect to CMS’s plans to implement new edits to check the format of the prescriber ID, we
note that such edits alone are not sufficient to ensure that PDE data include a valid prescriber ID.
We found instances in which the prescriber ID would pass a format check but the ID was not a
valid number. For example, the prescriber ID number associated with the largest number of
prescriptions for oxycodone and Ritalin was AA0000000. This number would have passed a
format check.




                                                 8
APPENDIX
                                                                                                               Page 1 of2


APPENDIX: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

/.p.~,



( t#      DEPARTMENT OF HEALTH &: HUMAN SERVICES

,~                                                                                  AdministTQtor
                                                                                    WUhlr>gLon, DC 20201




         DATE:           NOV 1 01018
         TO:           Daniel R. Levi nson
                       Inspector General

         FROM:         Do" ,ld M.
                       Administrator
                                    "''''kk.M.~        ~\
                                            __ ~:>v-J...O
                                                                         f\_  '"V>
                                                                              _J.o
                                                                        I ~VII ­
                                                                                                .
         SUB.IECT:     Offict! of Inspector General (DIG) Draft Report: Oversight of Ihe Prescriber
                       Identifier Field in Prescription Drug Even! Data for Schedule II Drugs
                       (A-14-09-00302)


         Thank you for the opportunity to review and comment on the subject 010 draft repon , which
         provides the results orlhe DIG's review aCthe oversight of Ihe prescriber identifier (ID) field in
         Prescription Drug Event (POE) data for Schedule II drugs. Tlte objective of the study was to
         determine whether POE records for Schedule II drugs contained valid prescriber IDs and
         whe ther the Centers for Medicare & Medicaid Services (eMS) and sponsors perfo nned any edits
         on the prescriber ID field . The DIG used data from calendar year 2007 to conduct the study.

         eMS shares the DIG's concern regarding the potential for abuse of contro lled substances in
         Federal health care programs. A s eMS begins to implement addi tional safeguards related to the
         prescribe r 10, we must continue to balance our dual interests in monitoring program
         vulnerabil ities with ensuring that Medicare beneficiaries have access to critical medications. For
         the reasons stated below, we do not concur with either of the O1G's recommtndations.

         D IG Recommendation

         The DIG recommends that CMS issue specific guidance to plan sponsors regarding POE records
         involving Schedule II drugs tha t requ ires sponsors to complete the prescriber ID field with a
         valid Drug Enforcement Administrati on (DEA) number for both standard and nonstandard
         fonnat POE records.

         eMS Response

         CMS does not concur with this recommendation . W hi le e MS recognizes the need to move to
         the use ofa standardized prescriber 10 for POE records, we believe use of the DEA number is
         not suitable as the si ngle 10 because only a fract ion of the POE vol ume involves Schedule II
         drugs. Therefore, e MS will evaluate our authority to mandate use of the National Provider
         Identifier (NPI) as the standard ized prescriber identifier for POE records, and expects to
                                                                                                     Page 2 of2




Page 2- Daniel R Levinson


undertake ru1cmaking as necessary 10 address the use of that single prescriber ID for PDE
records.

DIG Recom menda tion

The OIG recommends that eMS implement an edit to reject PDE records for Schedule II drugs
when the prescriber ID field contains an invalid prescriber ID number.

eMS Response

CMS does not concur w ith the rceommendation 10 reject PDE records that do not contain a valid
p~iber ID because we believe it is premalure. As noted above, eMS is still considering the
issue of the usc of the NP I as the standardized prescriber ID for POE records, and. thus, we do
nOI know at this lime whelher, upon implementation of thai single ID through rulemaking as
appropriate, it wou ld be feasible to reject POE records for Schedule II drugs as the O IG
recommends. However, we agree that we should work toward strengthening our requireme nts
re lated to prescriber ID numbers. To that end, eMS plans to institute new edits to check that the
format of the prescriber ID is corrc<:t on rOEs. Second, to the exlent we implement a
requirement for the usc of a single prescriber ID, we would also expect to implement a process
for verifyi ng the accuracy of that number.

CMS appreciates the effort that went into this report. Again, we thank thc O IG for the
opportunity to review and commcnt on this draft rcport.
